<html>
<title> - UPDATE ON THE CURRENT STATE OF NUCLEAR WASTE MANAGEMENT POLICY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





     UPDATE ON THE CURRENT STATE OF NUCLEAR WASTE MANAGEMENT POLICY

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2015

                               __________

                           Serial No. 114-42




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-988                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                       
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
GREGG HARPER, Vice Chairman          PAUL TONKO, New York
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               KURT SCHRADER, Oregon
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
RICHARD HUDSON, North Carolina           officio)
KEVIN CRAMER, North Dakota
FRED UPTON, Michigan (ex officio)
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     3
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    90

                               Witnesses

Andrew Fitz, Senior Counsel, Office of the Attorney General, 
  State of Washington............................................     6
    Prepared statement...........................................     9
    Answers to submitted questions...............................    92
Josephine Piccone, Director, Yucca Mountain Directorate, Nuclear 
  Regulatory Commission..........................................    17
    Prepared statement...........................................    19
    Answers to submitted questions...............................    99
Greg R. White, Commissioner, Michigan Public Service Commission, 
  on behalf of the National Association of Regulatory Utility 
  Commissioners, Chairman, Subcommittee on Nuclear Issues, Waste 
  Disposal.......................................................    25
    Prepared statement...........................................    27
    Answers to submitted questions...............................   105
Stephen Kuczynski, Chairman, President, and Chief Executive 
  Officer, Southern Nuclear Operating Company....................    36
    Prepared statement...........................................    38
    Answers to submitted questions...............................   112
Geoffrey H. Fettus, Senior Attorney, Natural Resources Defense 
  Council........................................................    56
    Prepared statement...........................................    58
Einar Ronningen, Manager Rancho Seco Assets, Decommissioning 
  Plant Coalition................................................    75
    Prepared statement...........................................    77
    Answers to submitted questions...............................   119
 
     UPDATE ON THE CURRENT STATE OF NUCLEAR WASTE MANAGEMENT POLICY

                              ----------                              


                          FRIDAY, MAY 15, 2015

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
room 2123, Rayburn House Office Building, Hon. John Shimkus, 
(chairman of the subcommittee) presiding.
    Present: Representatives Shimkus, Harper, Whitfield, Pitts, 
Murphy, Latta, Johnson, Hudson, Cramer, Tonko, Green, McNerney, 
and Pallone (ex officio).
    Also Present: Representative Newhouse.
    Staff Present: Charlotte Baker, Deputy Communications 
Director; Will Batson, Legislative Clerk; Leighton Brown, Press 
Assistant; David McCarthy, Chief Counsel, Environment/Economy; 
Chris Sarley, Policy Coordinator, Environment & Economy; Peter 
Spencer, Professional Staff Member, Oversight; Andy Zack, 
Professional Staff Member; Christine Brennan, Minority Press 
Secretary; Caitlin Haberman, Minority Professional Staff 
Member; and Rick Kessler, Minority Senior Advisor and Staff 
Director, Energy and Environment.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. It is 9:00. We want to start promptly. There 
is going to be votes sometime early this morning, and we want 
to get the opening statements through and encourage members to 
get back afterwards to follow up with questions. I will 
recognize myself for 5 minutes for an opening statement.
    Thank you all for coming to this morning's hearing to 
receive an update on the status of and outlook for progress on 
America's nuclear waste management policy. Let me state at the 
outset that issue of the Nation's nuclear waste management 
policy is not a partisan issue. The House of Representatives 
has repeatedly supported Yucca Mountain in an overwhelming and 
bipartisan manner. Last summer, efforts to abandoned Yucca 
Mountain were defeated on the House floor with the body voting 
4 to 1 in favor of Yucca Mountain. This includes nearly two-
thirds of the Chamber's Democrats.
    In April, I once again led a bipartisan group of members to 
see Yucca Mountain site firsthand. The site is an invaluable 
national asset isolated in the Nevada desert, removed from all 
population centers, and co-located with the Nevada National 
Security Site.
    Since my previous visit in 2011, the landscape has notably 
advanced to support the development of a permanent repository. 
In 2013, the D.C. Court of Appeals ruled that Nuclear 
Regulatory Commission must continue its review of the Yucca 
Mountain license application. The court issued a writ of 
mandamus, a very consequential legal action, and declared it 
was illegal for the NRC to stop consideration of the license. 
As a result of this decision, the NRC resumed the scientific 
and technical evaluation of the license known as the Safety and 
Evaluation Report, or SER. The SER looked at a plethora of 
potential natural and manmade scenarios which could affect the 
performance of the facility. In January of this year, the NRC 
released the fifth and final volume of the SER. The NRC staff 
determined the facility could meet all safety regulations 
including that it could safely serve as a repository for up to 
a million years. Meanwhile, the costs of inaction and delay 
continue to mount. The courts ruled the Department of Energy's 
dismantling of the Yucca Mountain project no longer constitute 
a permanent disposal program. Therefore, the Federal Government 
could no longer collect the nuclear waste fee, a surcharge paid 
by consumers of nuclear-generated electricity.
    While the fee is no longer being actively collected, the 
Treasury Department still maintains a balance of nearly $33 
billion in ratepayer money to license, construct, and operate 
Yucca Mountain. But it isn't just ratepayers who are paying for 
the consequences of the delay. All American taxpayers, 
regardless of whether they benefit from commercial nuclear 
power, are footing the legal bill, and the bill isn't cheap. 
Last year, the Department of Justice account that pays damages 
on behalf of the Federal Government, known as the Judgment 
Fund, paid out over $900 million in settlements as a 
consequence of our inability to move forward with Yucca. This 
accounted for nearly a third of all Federal Government legal 
fees.
    We in the Federal Government have an obligation to uphold 
the law, to dispose of commercial spent nuclear fuel, as well 
as honor the commitment made to states who host sites to 
support our nuclear defense activities, including South 
Carolina, Idaho, and Washington State. Congress needs a willing 
partner to host a nuclear disposal facility as we currently 
have with the sites that contributed to the Manhattan Project. 
I am committed to working with the State and local stakeholders 
in Nevada, who will engage in a constructive conversation to 
resolve the current impasse.
    Just saying no is not an option. As part of this process, 
we will look for areas of agreement such as facilitating a 
benefits package for communities to provide long-term budget 
stability, strengthen the State's education fund, and identify 
associated transportation infrastructure benefits. As a host 
state of a Nevada National Security Site, however, Nevada 
already is a constructive partner with the Federal Government 
to protect our National interests. This, by the way, includes 
storing radioactive waste onsite today.
    I look forward to hearing from a broad group of 
stakeholders today who will highlight the need to finish a 
repository, as the House Representative supports, as the courts 
direct, and as the American people deserve.
    Thank you, and I now recognize the ranking member, Mr. 
Tonko, for his opening statement.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Thank you all for coming to this morning's hearing to 
receive an update on the status of, and outlook for progress 
on, America's nuclear waste management policy.
    Let me state at the outset that the issue of the nation's 
nuclear waste management policy is not a partisan issue. The 
House of Representatives has repeatedly supported Yucca 
Mountain in an overwhelming and bipartisan manner. Last summer, 
efforts to abandon Yucca Mountain were defeated on the House 
floor with the body voting four to one in favor of Yucca 
Mountain. This includes nearly \2/3\ of the Chamber's 
Democrats.
    In April, I once again led a bipartisan group of members to 
see the Yucca Mountain site firsthand. The site is an 
invaluable national asset isolated in the Nevada desert, 
removed from all population centers, and co-located with the 
Nevada National Security Site. Since my previous visit in 2011, 
the landscape has notably advanced to support the development 
of a permanent repository.
    In 2013, the D.C. Court of Appeals ruled the Nuclear 
Regulatory Commission must continue its review of the Yucca 
Mountain license application. The Court issued a writ of 
mandamus, a very consequential legal action, and declared it 
was illegal for the NRC to stop consideration of the license. 
As a result of this decision, NRC resumed the scientific and 
technical evaluation of the license, known as the Safety 
Evaluation Report (SER).
    The SER looked at a plethora of potential natural and 
manmade scenarios which could affect the performance of the 
facility. In January of this year, NRC released the fifth and 
final volume of the SER. The NRC Staff determined the facility 
could meet all safety regulations, including that it could 
safely serve as a repository for up to a million years.
    Meanwhile, the costs of inaction and delay continue to 
mount. The Courts ruled the Department of Energy's 
dismantlement of the Yucca Mountain Project no longer 
constituted a permanent disposal program. Therefore, the 
Federal Government could no longer collect the Nuclear Waste 
fee, a surcharge paid by consumers of nuclear-generated 
electricity. While the fee is no longer being actively 
collected, the Treasury Department still maintains a balance of 
nearly $33 billion in ratepayer money to license, construct and 
operate Yucca Mountain.
    But it isn't just ratepayers who are paying for the 
consequences of the delay. All American taxpayers, regardless 
of whether they benefit from commercial nuclear power, are 
footing the legal bill. And the bill isn't cheap. Last year, 
the Department of Justice account that pays damages on behalf 
of the Federal Government, known as the Judgement Fund, paid 
out over $900 million in settlements as a consequence of our 
inability to move forward with Yucca. This accounted for nearly 
a third of all Federal Government legal settlements.
    We in the Federal Government have an obligation to uphold 
the law to dispose of commercial spent nuclear fuel, as well as 
honor the commitment made to States who host sites to support 
our nuclear defense activities, including South Carolina, Idaho 
and Washington State. Congress needs a willing partner to host 
a nuclear disposal facility, as we currently have with the 
sites that contributed to the Manhattan Project.
    I am committed to working with state and local stakeholders 
in Nevada who will engage in a constructive conversation to 
resolve the current impasse. Just saying no is not an option. 
As part of this process, we will look for areas of agreement, 
such as facilitating a benefits package for communities to 
provide longterm budget stability, strengthen the State's 
education fund, and identify associated transportation 
infrastructure benefits.
    As the host state of the Nevada National Security Site, 
however, Nevada already is a constructive partner with the 
Federal Government to protect our national interests. This, by 
the way, includes storing radioactive waste on site.
    I look forward to hearing from a broad group of 
stakeholders today who will highlight the need to finish a 
repository, as the House of Representatives supports, as the 
Courts direct, and as the American people deserve.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair. We are here this morning 
to hear from a fine panel of witnesses about the current state 
of nuclear waste policy. There are some things that I do not 
expect will have changed much from the time of our last hearing 
on this issue. Nuclear facilities across the country continue 
to generate waste that has yet to be secured in a long-term 
storage facility. Research and development on waste 
technologies continues. The law designating a storage facility 
is unchanged, and today we add to the many oversight hearings 
the subcommittee has held over the years.
    But we still have no real solution, even an interim one, to 
offer to the witnesses at the table today and the 
constituencies that they do, indeed, represent. There have been 
reports by the National Academy of Sciences, the Government 
Accountability Office, industry and nongovernmental groups, and 
the President's Blue Ribbon Commission. Ironically, we have a 
long-term storage facility, and yet we do not. And we do not 
have interim storage facilities or a policy of establishing 
them, and yet we do. Essentially the storage facilities at each 
of the powerplant sites around the country now serve as de 
facto interim storage facilities.
    We need a solution to this situation. It will not be easy, 
and it will be expensive. But the alternative is also expensive 
and provides less safety, less security than a functioning, 
ordered process for dealing with spent fuel. And Mr. Fitz 
reminds us that we also have to deal with legacy waste from our 
defense programs.
    I know the chair and others on this committee are resolved 
to complete the process of opening the Yucca Mountain facility, 
but the Yucca Mountain facility is not open at this time, and 
it does not appear it will be open in the near future. In the 
meantime, spent fuel continues to accumulate, and penalty fees 
continue to accrue. I continue to believe that it is worth 
examining additional options for dealing with this waste.
    The administration's strategy, based on the work done by 
the Blue Ribbon Commission in 2012, has challenges and 
unknowns. Should we pursue a system that includes both interim 
and long-term storage of waste? If so, how do we proceed? If 
there are to be interim sites, how many will be needed? How 
much waste can or should be stored at them, and what time 
period qualifies as interim? What are the costs, and can we 
access the necessary funds to the fund established to deal with 
this problem?
    I do not expect to hear definitive answers to these 
questions this morning, but I do think it is time that we 
examined all options for moving forward. I think the future for 
nuclear power is in question if we do not find a way to deal 
with this issue.
    I want to thank all of our witnesses for appearing before 
the subcommittee today. I look forward to your testimony and to 
your suggestions on options to move forward on what is a very 
critical and important issue.
    And, with that, Mr. Chair, I yield back.
    Mr. Shimkus. The gentleman yields back his time. Anyone 
seeking time on the majority side?
    Seeing none, the chair recognizes the ranking member of the 
full committee, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    I want to thank you and Ranking Member Tonko for holding 
this hearing today.
    Much has changed since the Nuclear Waste Policy Act became 
law in 1982, which allowed the Secretary of Energy to remove 
spent nuclear fuel from commercial nuclear power plants in 
exchange for fees and transported to a permanent geological 
repository. But I think the past three decades of the nuclear 
waste program might be best summed up this way: Lots of change 
but very little progress.
    Unfortunately, the one thing that seems most resistant to 
change is the program's ongoing failure to the ratepayers, who 
have paid into the fund. That failure also applies to the 
taxpayers, who are now having to pay damages through the 
Judgment Fund administered by DOJ. In New Jersey, we have 
several operating nuclear reactors that provide carbon-free 
electricity, and this includes Oyster Creek, the Nation's 
oldest operating plant, which will soon stop providing power 
but will continue to provide a home to spent nuclear fuel long 
into the future unless we can come together on a plan to fix 
this program.
    My point is this: I am not interested in litigating the 
wisdom of the administration's actions with regard to Yucca 
Mountain because that won't help move waste out of New Jersey, 
Illinois, New York, Michigan, or anywhere else anytime soon. I 
am, however, interested in making progress, and I hope this 
committee will put the ratepayer and taxpayer first and focus 
on efforts that can be enacted into law and that will move us 
forward over the next few years. I am encouraged by recent 
developments on potential consensus sites for interim storage 
in Texas and New Mexico, and we should look closely at the 
prospects they offer. That in no way means we should curtail 
our push for a permanent repository, but I do believe the best 
path forward is to work to identify steps we can take now to 
set the stage for real reform on permanent disposal in the 
future, regardless of where the disposal facility ends up being 
sited.
    Again, thank you for holding this hearing. I look forward 
to hearing from our witnesses and working with all my 
colleagues, stakeholders, and the administration to put our 
Nation's nuclear waste program back on track.
    And I would yield the balance of my time to the gentleman 
from California, Mr. McNerney.
    Mr. McNerney. I want to thank the ranking member, and I 
thank the chairman of the subcommittee for his work on this 
issue. Managing nuclear waste is an engineering and a political 
problem. Based on the work I did as a graduate student for the 
Nuclear Engineering Department at the University of New Mexico, 
I believe the engineering problem can be solved safely and 
satisfactorily.
    Experience has shown that in order to find a location with 
the support of the local community, we are going to need 
complete transparency and the involvement of the local 
community in order to be accepted by the local community.
    More than $10 billion has been spent on the Yucca Mountain 
project, and that money may be wasted because there wasn't the 
transparency and local involvement that would be required. The 
current situation we have invites a Fukushima-style disaster to 
happen in this country because there is so much waste stored in 
so various locations as we will hear near the Columbia River 
and other places. So are we going to need a solution? I thank 
the chairman for his work, and I think we need to work together 
in a bipartisan way to find a way forward, Mr. Chairman.
    And, again, I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    Before we begin with the opening statements of our guests, 
I want to just point out that joining us is Congressman Dan 
Newhouse, a Member from Washington State, who has the honor and 
the challenge of representing the Hanford DOE site, which I 
think shows our common interest in moving forward on this.
    Thank you for joining us.
    I am going to move rapidly so we can get all our process 
through and hopefully have people return after they call votes.
    So first at the panel and will be recognized for 5 minutes, 
Mr. Andrew Fitz, senior counsel, Office of the Attorney 
General, State of Washington.
    Your full statement has submitted for the record.
    You have 5 minutes, sir.
    Pull that mic a little bit closer if you can. Move your 
name tag and then make sure the button is pressed on.

   STATEMENTS OF ANDREW FITZ, SENIOR COUNSEL, OFFICE OF THE 
   ATTORNEY GENERAL, STATE OF WASHINGTON; JOSEPHINE PICCONE, 
   DIRECTOR, YUCCA MOUNTAIN DIRECTORATE, NUCLEAR REGULATORY 
COMMISSION; THE HONORABLE GREG R. WHITE, COMMISSIONER, MICHIGAN 
     PUBLIC SERVICE COMMISSION, ON BEHALF OF THE NATIONAL 
  ASSOCIATION OF REGULATORY UTILITY COMMISSIONERS, CHAIRMAN, 
    SUBCOMMITTEE ON NUCLEAR ISSUES, WASTE DISPOSAL; STEPHEN 
 KUCZYNSKI, CHAIRMAN, PRESIDENT, AND CHIEF EXECUTIVE OFFICER, 
SOUTHERN NUCLEAR OPERATING COMPANY; GEOFFREY H. FETTUS, SENIOR 
    ATTORNEY, NATURAL RESOURCES DEFENSE COUNCIL; AND EINAR 
 RONNINGEN, MANAGER RANCHO SECO ASSETS, DECOMMISSIONING PLANT 
                           COALITION

                    STATEMENT OF ANDREW FITZ

    Mr. Fitz. There we go. On behalf of the State of 
Washington, Office of the Attorney General, I appreciate the 
opportunity to be here before you today. Washington State has a 
keen interest in the development of a permanent repository for 
high-level radioactive waste and spent nuclear fuel. For nearly 
eight decades, we have honored our duty to temporarily house 
nuclear waste as a byproduct of our Nation's defense at the 
Department of Energy's Hanford Nuclear Reservation.
    Waste from Hanford accounts for approximately 63 percent of 
the defense-generated high-level waste projected for disposal 
at Yucca Mountain. I should point out that our near-term 
concern is in getting this waste out of failing underground 
single-shell tanks and into a glass form. But our long-term 
interest is in seeing that all this waste is properly disposed 
of in a deep geologic repository. That is what led us into 
litigation over the efforts to abandon Yucca Mountain in 2010.
    The Federal Government's efforts to abandon Yucca Mountain 
have ignored and bypassed the careful process Congress set 
forth in the Nuclear Waste Policy Act for developing a national 
repository. Washington State has been clear in its legal 
arguments that if Yucca Mountain is determined to be 
technically unsuitable in the licensing process, it should not 
be built. But, absent that determination, the process Congress 
set forth in law for establishing the repository should be 
respected and upheld.
    In passing the Nuclear Waste Policy Act, Congress 
recognized that accomplishing the long-term objective of a 
national repository requires a stepwise approach and a process 
cemented in law. The House bill report that accompanied the 
NWPA concluded that, ``The failure of government to provide a 
permanent waste disposal facility during more than 30 years of 
Federal nuclear activities is unmitigated.'' It criticized 
prior Federal agency competence in ``paper analyses and future 
plans'' as failing to provide ``adequate assurance that 
disposal facilities would be available when needed.''
    It noted that two prior attempts to explore potential 
repository sites had already failed due to intense political 
pressure, and it noted what it called a solid consensus of 
special task force and Presidential commission recommendations 
on the need for legislation to ``solidify a program and keep it 
on track.'' In particular, the report noted ``it is necessary 
to provide close congressional control to assure that the 
political and programmatic errors of our past experience will 
not be repeated.'' If it is to stand any chance of success, the 
process for developing a repository has to necessarily stand 
and withstand changes to Federal and State administrations and 
the political tides that accompany them. If you are going to 
complete a process measured in decades, you cannot be 
continually second-guessing or switching course partway 
through, or you will never accomplish the objective.
    The thing that keeps you on course is and must be the law. 
This is at the heart of the NWPA's stepwise prescriptive 
structure. Critically, Congress reserved for itself the 
ultimate decision of approving a potential repository site. In 
the case of Yucca Mountain, Congress exercised that authority 
when it rejected Nevada's disapproval of the site. And later, 
when the D.C. Circuit Court of Appeals rejected Nevada's legal 
challenge to that recommendation to Congress, the court said: 
Congress has settled the matter, and we no less than the 
parties are bound by its decision.
    Once a repository site is approved under the NWPA, it 
triggers a mandate for the Department of Energy to submit a 
construction authorization application to the NRC and an 
obligation on the NRC to consider Energy's application and 
issue a final decision approving or disapproving issuance of a 
construction authorization. Energy disregarded these mandates 
in 2010. It attempted to withdraw from the licensing proceeding 
based not on any claim that Yucca Mountain is technically 
unsuitable but on ``the Secretary's judgment that Yucca 
Mountain is not a workable option'' and that ``alternatives 
will better serve the public interest.''
    The NRC's Atomic Safety and Licensing Board agreed with our 
argument that the NWPA's plain language and legislative history 
did not permit the Secretary to withdraw the application. In 
the words of the board ``the NWPA does not give the Secretary 
the discretion to substitute his policy for the one established 
by Congress in the NWPA, that at this point mandates progress 
towards a merits decision by the Nuclear Regulatory 
Commission.'' Energy's application thus remains pending before 
the NRC today.
    As the committee may know, the NRC Chair nevertheless then 
initiated his own orderly shutdown of the NRC's license review. 
The shutdown included terminating the NRC staff's technical 
review, blocking the release of Safety Evaluation Reports and 
shutting down the NRC's Web-based licensing support network, 
which was a database for all the documentation regarding the 
application. Despite having more than $11 million available in 
appropriated funds to continue with licensing proceedings, the 
NRC cited budgetary considerations for its actions, including 
the political prediction that Congress would not further fund 
its efforts. It took Washington State and its fellow 
petitioners bringing a mandamus action and the court issuing an 
order in August 2013 to reverse this unilateral dismantling.
    In a clear, blunt order, the Federal Court concluded that 
the NRC `` has declined to continue the statutorily-mandated 
Yucca Mountain licensing process,'' and that ``as things stand, 
the Commission is simply flouting the law.'' It rejected the 
NRC's budgetary arguments and cited the bedrock principle of 
constitutional law that ``the President and Federal agencies 
may not ignore statutory mandates or prohibitions merely 
because of policy disagreement with Congress.''
    Here is where that leaves us. The NRC has now completed and 
released its Safety Evaluation Reports. We have final legal 
decisions in place that establish the obligation of both Energy 
and the NRC to continue with the Yucca Mountain licensing 
process providing the funding is in place to proceed.
    I understand there are those who think that Yucca Mountain 
is technically unsuitable, but the law provides an opportunity 
to prove that case in the pending NRC hearing. I also 
understand there are those who think that following the current 
scheme in the NWPA is unwise, but the method for pursuing that 
disagreement should be through changing the law, not 
disregarding it. Ultimately, given the multi-decade, multi- 
generational task of developing a nuclear waste repository, we 
will never have a repository, whether it is at Yucca Mountain 
or any other site, if the legal process for siting and 
licensing a repository is disregarded, either now or by those 
who follow us. Thank you and I will be happy to take any 
questions.
    [The prepared statement of Mr. Fitz follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Shimkus. I appreciate it. I know you have traveled long 
distances and a lot, and I want to make sure you got your full 
statement in. But we are trying to keep quick.
    I would now like to recognize Ms. Josephine Piccone, 
Director of Yucca Mountain Directorate from the Nuclear 
Regulatory Commission.
    You are welcome, and you are recognized for 5 minutes.

                 STATEMENT OF JOSEPHINE PICCONE

    Ms. Piccone. Thank you. Good morning, Chairman Shimkus, 
Ranking Member Tonko, and distinguished members of the 
subcommittee. I am Josephine Piccone, Director of the Nuclear 
Regulatory Commission's Yucca Mountain Directorate, which is 
responsible for leading the current review activities 
associated with the Yucca Mountain construction authorization 
application.
    I appreciate the opportunity to appear before you today to 
discuss the NRC staff's completion of the Yucca Mountain Safety 
Evaluation Report. On November 18, 2013, the NRC Commission 
approved a memorandum and order setting a course of action for 
the Yucca Mountain licensing process, consistent with the 
Appeals Court decision on August 2013, and the resources 
available from previous unexpended appropriations to the NRC 
from the Nuclear Waste Fund. This course of action included the 
Commission directing the NRC staff to complete the Safety 
Evaluation Report. We completed the Safety Evaluation Report 
this past January within our cost estimate. I would like to 
acknowledge our talented review team of more than 40 agency 
experts in technical fields such as health physics, geology, 
seismology, hydrology, material sciences, structural 
engineering, and criticality safety, to name but a few. We also 
had an excellent legal staff providing valuable support and 
assistance from the NRC's federally funded research and 
development center, the Center for Nuclear Waste Regulatory 
Analyses, in San Antonio, Texas.
    The Safety Evaluation Report documents the results of the 
staff's technical review of DOE's application. The NRC staff 
finds that DOE has met most, but not all, of the applicable 
regulatory requirements. Notably, the NRC staff finds that 
DOE's design and analysis of the proposed repository complies 
with the performance objectives and requirements both before 
and after the repository is closed.
    These performance objectives and requirements, which are 
protective of public health and safety, include the 
requirements that the repository be composed of multiple 
barriers, requirements for the repository to meet certain 
radiation limits for individual protection and human intrusion, 
and separate standards for protection of groundwater. The staff 
also finds that DOE has addressed most of the general 
information, administrative, and programmatic requirements.
    There are two specific requirements that DOE has not met 
that concern ownership of land and water rights. They are 
discussed in detail in Volume 4 of the Safety Evaluation 
Report. In addition, a supplement to DOE's environmental impact 
statement addressing groundwater issues has not been completed. 
Therefore, the NRC staff is not recommending issuance of a 
construction authorization at this time.
    Publication of the Safety Evaluation Report is only one of 
several steps that need to occur before a decision can be made 
on the construction authorization application. A decision on 
whether to authorize construction can be made only after a 
supplement to DOE's Environmental Impact Statement has been 
prepared, a hearing has been conducted, and the Commission has 
completed its review of contested and uncontested issues. With 
regard to the first item, the Commission has directed the NRC 
staff to develop a supplement to DOE's Environmental Impact 
Statement covering certain groundwater issues.
    The largest and most significant of the remaining steps to 
be completed before the Commission can reach a decision on 
whether to grant the construction authorization is the 
adjudicatory hearing, including consideration of approximately 
300 pending contentions and any new or amended contentions. The 
NRC does not currently have sufficient remaining resources from 
the Nuclear Waste Fund to complete the hearing. Recently the 
Commission informed the Congress that it estimated that 
approximately $330 million would be needed for the NRC to 
complete the construction authorization proceeding.
    This concludes my formal testimony on the NRC Safety 
Evaluation Report. I thank you for the opportunity to appear 
before you, and I look forward to continuing to work with you 
to advance NRC's important safety and security missions. I 
would be pleased to respond to questions you may have. Thank 
you.
    [The prepared statement of Ms. Piccone follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
        
    Mr. Shimkus. Thank you very much.
    Next, we have the Honorable Greg R. White, Commissioner of 
Michigan Public Service Commission, on behalf of the National 
Association of Regulatory Utility Commissioners, Chairman of 
the Subcommittee on Nuclear Issues and Waste Disposal. He has 
appeared here numerous times.
    You are recognized for 5 minutes, and thanks for coming.

            STATEMENT OF THE HONORABLE GREG R. WHITE

    Mr. White. Thank you very much, Chairman Shimkus, Ranking 
Member Tonko, and members of the subcommittee.
    I want to thank you for this opportunity to testify on the 
status of the U.S. nuclear waste program. I am Greg White. I 
serve as commissioner on the Michigan Public Service 
Commission. I am testifying today on behalf of NARUC, National 
Association of Regulatory Utility Commissioners.
    NARUC is a nonprofit organization. It has been around for 
over 125 years. Members are the public utility commissions in 
all 50 States and U.S. territories. We are State economic 
regulators, and we are responsible for ensuring the safe, 
reliable, and affordable delivery of essential electric utility 
service in every state. As a result, the success of this 
program is critical to the delivery of essential electric 
services.
    I would like to raise a few points and then offer some 
comments in regards to what we think might be able to be done 
going forward. NARUC was at the table when the 1982 law was 
passed, and we agreed that it was appropriate for the consumers 
to pay for this program. The people who benefit from the 
generation of electricity from nuclear power plants 
appropriately should pay for it. And the consumers have paid. I 
would like to point out that the only milestone in the 1982 act 
that was ever on time was the signing of the contracts that 
began the collection of money from the consumers. Since then, 
more than $40 billion has been collected in direct payments and 
in interest that has accrued in the balance. The current status 
of the program, the same as it was in 1982; we don't have 
anything moving forward. The program is at a dead stop.
    A couple of other points. I also serve as the chairman of 
an organization called the Nuclear Waste Strategy Coalition 
that was formed in 1993. It is a group of State commissions, 
utility, nuclear utilities, consumer advocates, local 
communities, and we were formed in 1993. I can tell you that, 
as somebody who was in the room in 1993, we didn't intend or 
ever expect that we would still be an organization working on 
this issue in 2015, some 22 years later.
    We also proposed way back in 1994, the Nuclear Waste 
Strategy Coalition, the creation of a single-purpose entity, a 
public-private corporation chartered by the Congress to manage 
this program, removing it from the Department of Energy. That 
was in 1994. The proposal was rejected pretty much out of hand. 
The argument was by moving to that new entity, it could delay 
the progress on the program by up to a year.
    We have been involved in several lawsuits, as you know. 
They have been explained by Mr. Fitz. Chairman Shimkus, I would 
like to point out one in particular, the suspension of the 
Nuclear Waste Fund, which we argued we needed to do. We 
considered that to be a bittersweet win. It was always our 
intention to pay for the program, to have the consumers pay for 
the program. But when there was no program after 2010, we could 
no longer continue to allow hundreds of millions of dollars to 
be collected from consumers into a fund that was paying for 
nothing.
    So the Department of Energy has had some plans, I will say 
``schemes,'' perhaps. The problem is, is that they really have 
no credibility. There is no budgets. There is no time frames, 
other than the proposal that was made in 2013 as a result of 
the Blue Ribbon Commission's recommendations suggested that the 
Department would make substantial progress towards a national 
repository by 2048, some 35 years from that date.
    My suggestion is, we seem to have learned nothing in the 
previous 32 years that led up to that point.
    So, in conclusion, NARUC has thoughtfully considered the 
country's viable options. And we think that to move forward on 
a nuclear waste program, that we have to see credible 
substantial progress toward achieving the goal. The first step 
is to complete the licensing review of the Yucca Mountain 
license application. We also believe that the Nuclear Waste 
Fund must be managed responsibly and used only for its intended 
purpose. The management of the Federal responsibilities for 
integrated-use fuel management would be more successful if it 
was assigned to a new organization, such as the charter of a 
new Federal corporation, suggested by the Nuclear Waste 
Strategy Coalition back in 1994. And, in addition, we believe 
that there is a need for consolidated interim storage although 
the amount, basis of need, and duration should be determined.
    If implemented in the near term, these steps could create a 
solid foundation on which to build a viable spent nuclear 
program. I want to thank you for the opportunity to express my 
views, and I will be very pleased to take questions.
    [The prepared statement of Mr. White follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
    
    Mr. Shimkus. Thank you very much.
    Next, we will recognize Mr. Stephen Kuczynski, chairman, 
president, and chief executive officer of the Southern Nuclear 
Operating Company.
    You are recognized for 5 minutes, and welcome.

                 STATEMENT OF STEPHEN KUCZYNSKI

    Mr. Kuczynski. Good morning, Chairman Shimkus, Ranking 
Member Tonko, and the members of the subcommittee. I also thank 
you for the opportunity to appear before you today. As stated, 
my name is Steve Kuczynski. I am the chairman, president, and 
CEO of the Southern Nuclear Operating Company. We have been in 
the nuclear power business for over 50 years. Today our fleet 
of six nuclear reactors at three sites, Plant Hatch and Plant 
Vogtle in Georgia, and Plant Farley in Alabama, provide 
approximately 20 percent of the electricity used in those 
States. We are also building two new state-of-the-art nuclear 
units at Plant Vogtle.
    It is an honor for me to appear before the subcommittee to 
discuss nuclear waste policy in general. Essential to this 
discussion is, of course, the need for a permanent repository. 
It is critical that the Federal Government meet its contractual 
obligation to take title to the Nation's spent fuel inventory. 
It is appropriate for the subcommittee to explore ways to get 
the statutorily mandated spent nuclear fuel disposal program 
back on track. I look forward to discussing these and other 
issues with you today.
    Let me begin with a brief discussion about our company's 
spent fuel program. Currently we have 2,300 fuel assemblies and 
spent fuel pools at Plant Farley, another 930 assemblies in dry 
casks. At Plant Hatch, we have approximately 5,000 assemblies 
in the pools with 4,150 in dry casks. At Plant Vogtle, we have 
2,600 assemblies in the pools and 480 in dry casks.
    First thing I want to emphasize is that we have safe, 
reliable, onsite options to store spent fuel at our nuclear 
plants for the duration of our plant licenses and the expected 
life of the plants. Spent fuel pools and dry cask storage 
installations are regulated and approved by the NRC under very 
comprehensive safety, security, and environmental regulations. 
But these temporary measures should not be viewed as de facto 
permanent solutions to the spent fuel disposal issue.
    Under both law and contract, disposal of spent fuel is an 
obligation of the Federal Government. My written testimony 
explains in some more detail how this came to be. I won't 
repeat that history here, other than to say that the Nuclear 
Waste Policy Act directed the Energy Secretary to enter into 
contracts with the Nation's nuclear utilities. Those contracts 
provided that, in return for payment of the fees into the 
Nuclear Waste Fund, the government will take title to nuclear 
powerplant owner spent fuel for permanent storage at the 
Nation's repository beginning in 1998.
    Industry was effectively mandated to enter into these 
contracts. Under these contracts, Alabama Power has paid over 
$399 million into the Nuclear Waste Fund for Plant Farley, and 
Georgia Power has paid over $400 million for Plant Hatch and 
$445 million for plant Vogtle. Those are real dollars obtained 
from electricity customers in our States on the basis of spent 
fuel contracts with the Federal Government. 1998 came and went. 
Seventeen years later, the Federal Government still has not 
begun to perform its end of the contracts. My written testimony 
explains nuclear powerplant owners have been forced to make 
other onsite arrangements to store our spent fuel temporarily 
at great expense to our companies.
    The industry has mitigated these losses to some degree by 
recovering monetary judgments from the Federal Government on 
the basis of partial breach of contract claims. These 
recoveries have been limited so far to the cost for storage 
facilities made necessary by the government's breach. The 
Government Accountability Office has estimated that, in total, 
across the industry, Federal Government's liability for breach 
of the spent fuel contracts will exceed $21 billion by 2071.
    That is a brief summary of the current situation, but the 
news is not all negative. There is increasing confidence that 
the Nation's nuclear waste disposal program is getting back on 
track. With recent court rulings requiring further action on 
the Yucca license application and the NRC's recent reports 
finding Yucca Mountain to be safe. The Nation has come too far 
and invested too much to abandon the Yucca Mountain repository 
now.
    In closing, I applaud the subcommittee for taking keen 
interest and tackling this complex and challenging problem. The 
good news, it is not an insurmountable issue. Indeed, from a 
technical, safety, financial, and legal perspective, the path 
forward is manageable and understood. In many respects, the key 
challenges are political and the domain of Congress to address.
    Let me finish with three final thoughts for you to 
consider. First and number one, the Nation should move forward 
with the permanent repository at Yucca Mountain. I believe that 
is clear. Two, Congress should reform the funding mechanisms 
for these programs to ensure access to the Nuclear Waste Fund 
for appropriate uses. The key challenge has been the program 
relies on appropriations which has been subject to the ebbs and 
flows of politics. And, three, Congress needs to protect the 
investment of electricity customers around the country who have 
collectively paid billions of dollars to the Federal government 
to dispose of the Nation's spent fuel inventory.
    Thank you, Chairman Shimkus, for allowing me to appear 
before you here today and the subcommittee. I look forward to 
your questions.
    [The prepared statement of Mr. Kuczynski follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
       
        
    Mr. Shimkus. Thank you.
    Next I would like to recognize Mr. Geoffrey Fettus, Senior 
Attorney from the Natural Resources Defense Council.
    You are recognized for 5 minutes, and welcome.

                STATEMENT OF GEOFFREY H. FETTUS

    Mr. Fettus. Thank you, Chairman Shimkus and Ranking Member 
Tonko, and distinguished members of the subcommittee for having 
me today and allowing me to provide the Natural Resources 
Defense Council's views on this matter.
    Let me get right to two key issues at hand, the proposed 
Yucca Mountain repository and interim storage away from reactor 
sites. We are concerned Congress is on a trajectory to make two 
misguided decisions that run directly counter to the bipartisan 
set of recommendations found in President Obama's Blue Ribbon 
Commission for America's Nuclear Future.
    First, with respect to Yucca--and I will note that Nevada 
is not here--it is clear some members believe the proposed 
Yucca site is a safe place to bury spent nuclear fuel and that 
the project can be revived now that Senator Reid is retiring. 
Reasonable people can disagree. Respectfully, those ideas are 
not accurate. Efforts to restart the failed process face an 
uphill climb of massive technical and institutional challenges, 
years of litigation, and a complete lack of meaningful State 
consent. Simply, Yucca Mountain leaks profusely. Licensing 
depends on, at this point, a fictional set of drip shields. And 
the State is joined across party lines to litigate the matter 
for as long as it takes.
    This is on top of the history where, in an effort to 
preserve what turned out to be an unworkable site, in the mid-
1980s, the Energy Department, they abandoned its technical 
siting guidelines used to select Yucca. In the early 2000s, EPA 
gerrymandered the site boundaries in an effort to ensure that 
radiation doses at the edge of the regulated area miles away 
would be acceptable. And then DOE proposed that hundreds of 
years into the future, the agency would spend billions more to 
introduce titanium drip shields to prevent the early corrosion 
of the waste containers.
    Along the way, Congress worked on the site selection 
process by simply selecting Yucca and then demanding EPA's 
regulations be consistent with the views of the National 
Academy of Sciences. This effort subsequently backfired when a 
bipartisan panel of the D.C. Circuit unanimously found that 
EPA's rule was not, in fact, consistent with the views of the 
National Academy of Sciences.
    Restarting the Yucca fight, respectfully, Mr. Chairman, is 
not the way to go nor is the right way to proceed with the 
current flurry of premature interim storage plants. Here 
Congress could be poised to delink interim storage of spent 
fuel from the requirement to first establish an acceptable 
final geologic site. Wise leaders with a history of reaching 
across the aisle, like Jeff Bingaman of New Mexico, who was the 
first and last to introduce potentially workable legislation 
consistent with the BRC recommendations warned against such 
tactics for decades. The American public and each of the 
States--and I think this is where we all agree--not just the 
industry that has the special deal of the Federal Government 
assuming its waste burden, has the right to expect a permanent, 
thoughtful solution to our nuclear waste dilemma. Simply 
expediting an interim storage site for Texas or for New Mexico 
or some other yet-to-be-named State, without doing the work of 
crafting a comprehensive bill that can finally get the 
repository program off the Yucca treadmill and back on track 
will most likely lead to double the transportation risks, even 
more extended above-ground storage of highly radioactive waste 
with no permanent disposal and deeply misguided efforts to 
shift that waste to Yucca or WIPP when the political stars, not 
the scientific stars, align. This approach passes the risk to 
future generations and is destined to arrive in the same 
quagmire we are sitting in now. It simply doesn't solve the 
problem.
    Instead of proceeding in this fashion, in my written 
statement I have outlined an approach that NRDC believes is 
workable and can regain the widespread public and, most 
important, State support necessary. The elements of this 
approach are: One, recognized that repositories must remain the 
focus of any legislative effort; two, create a coherent 
legislative framework--and this is most important--before 
commencing any geologic repository or interim storage site 
development processes; three, arrive at a consent-based 
approach for nuclear waste storage via a fundamental change in 
law; four, address the storage or interim storage in a phased 
approach consistent with the careful architecture of former 
Senator Bingaman's S. 3469, which was introduced in 2012; and, 
five, exclude delaying, proliferation, driving, and polarizing 
closed fuel cycle and processing options from this effort.
    This is one area where we certainly agree hopefully with 
every member of the subcommittee. The history of the Federal 
nuclear waste program has been dismal, but decades from now, 
others will face the precise predicament we find ourselves in 
today unless Congress revamps how nuclear waste is regulated 
and allows for meaningful State oversight. Otherwise, we are 
doomed to repeat this cycle until a future Congress gets it 
right.
    Thank you again for this opportunity, and I am happy to 
answer any questions.
    [The prepared statement of Mr. Fettus follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
       
        Mr. Shimkus. Thank you.
    Now, last but not least, Mr. Ronningen, manager of Rancho 
Seco Assets, Decommissioning Plant Coalition.
    You are recognized for 5 minutes.

                  STATEMENT OF EINAR RONNINGEN

    Mr. Ronningen. Good morning. I am Einar Ronningen, manager 
of the Rancho Seco Nuclear Facilities for the Sacramento 
Municipal Utility District, known as SMUD. And I am here today 
on behalf of the Decommissioning Plant Coalition.
    The DPC is comprised of companies whose sites have ceased 
all commercial nuclear-generating operations. Our members own 
10 facilities in the States of California, Connecticut, 
Illinois, Maine, Massachusetts, Michigan, Vermont, and 
Wisconsin. We appreciate this opportunity to provide our 
perspective on the status of U.S. Nuclear waste management 
policy.
    SMUD's Rancho Seco nuclear-generating station ceased 
commercial operation in 1989, but there remains an 11-acre 
independent spent fuel storage installation containing 22 dual-
purpose cannisters licensed for the dry storage and 
transportation of used nuclear fuel and greater than Class C 
waste ultimately destined for disposal by the DOE. As is the 
case with other utilities, SMUD has successfully litigated a 
partial breach of contract claim against the DOE to recover the 
costs incurred in our management of this material. To date, 
SMUD has won judgments in the U.S. Court of Claims totalling 
$73 million. These damage awards have been paid by taxpayers 
out of a permanent appropriations account in the Treasury 
called the Judgment Fund. Industry-wide taxpayer liabilities 
for the government's failure to perform under the contracts in 
a timely manner are approaching $4.5 billion, and DOE estimates 
that its liability will reach almost $13 billion by 2020, 
increasing annually by $500 million per year if it does not 
find a way to begin satisfying its obligation by 2022.
    From the outset, the DPC has been supportive of Yucca 
Mountain, and in the early years of our organization, we worked 
with Congress in urging DOE to prepare a sound license 
application, address the transportation infrastructure 
requirements, and otherwise take steps to prepare for the 
movement of this material from our sites on a priority basis.
    Nonetheless and without repeating the oft-reported 
historical details, Mr. Chairman, let me just state the 
obvious. Although the spent fuel at all our utility sites is 
and will be safely managed for as long as it takes, right now 
U.S. nuclear waste management policy is broken.
    The DPC sincerely appreciates the efforts you have made, 
Mr. Chairman, to reinvigorate the debate over the future of 
Yucca Mountain, and we were heartened by the finding of the NRC 
staff in their Safety Evaluation Report that the application 
demonstrates the ability of the site to meet all post-closure 
requirements of that agency. But we note that the staff also 
found that it could not yet recommend the issuance of a 
construction authorization due to several findings, including 
the lack of institutional control of the site and access to 
water rights necessary for the construction and operation of 
the facility, issues that will require the enactment of further 
legislation. The need for further legislation, the continued 
opposition by significant leaders in the State of Nevada, the 
dismantlement of the Office of Civilian Radioactive Waste 
Management at DOE, the technical licensing challenges filed by 
opponents of the project, and the track record of DOE in 
completing one-of-a-kind facilities on time and within budgets, 
combined with the level of financial resources that need to be 
appropriated by Congress in a constrained fiscal environment to 
license, construct, and operate the proposed repository, lead 
us to the uneasy conclusion that the uncertainties of when 
Yucca Mountain would be open are not likely to be overcome in 
timeframes that meet the equity interests of our host 
communities. It is because of our members' commitments to our 
host communities to resolve the current stalemate in U.S. 
nuclear waste policy as expeditiously as possible that we urge 
this committee to support the legislation that would not only 
take steps to get the Nation's geologic repository program back 
on track but also authorize the establishment of an voluntary 
incentive-based siting program that would lead to the licensing 
of a consolidated interim storage facility and to initiate a 
pilot program to remove the material from our sites on a 
priority basis.
    We are pleased that two potential storage projects have 
been announced by capable private sector companies in the past 
four months. These could offer DOE the means to meets its 
contractual obligations.
    Mr. Chairman, and members of the subcommittee, a pilot 
storage program that prioritizes the removal of material from 
permanently shutdown sites that is responsive to private sector 
initiatives, can be accomplished with reasonable support from 
the Nuclear Waste Fund without any impact on the repository 
program. The pilot would demonstrate the ability of the Federal 
Government to plan and execute their responsibilities for waste 
acceptance and transportation under the standard contract, 
relieve the taxpayer of the obligation to continue paying 
Judgment Fund damages, and allow these sites to be repurposed 
for useful purposes.
    We applaud your steadfast interest in a vibrant repository 
program, and we urge you to look favorably on the passage of 
legislation establishing a consolidated interim storage program 
that takes advantage of these new opportunities to remove used 
fuel and greater than Class C waste from those facilities where 
commercial reactor operations have permanently ceased.
    Thank you for the opportunity, and we look forward to 
questions you may have.
    [The prepared statement of Mr. Ronningen follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        Mr. Shimkus. Thank you. You did a great job, so I 
appreciate the testimony.
    And I will recognize myself 5 minutes for the first round 
of questions.
    With the finish of the Safety and Evaluation Report, we now 
move to the next step, which is the license application. A very 
simple question, and as much as possible I would like to get a 
yes-or-no answer because it is just based upon the license 
application. After 30 years of scientific evaluation and $15 
billion spent on the project, we are still waiting for the 
final determination about the suitability of Yucca Mountain to 
serve as a permanent geological repository. Just going down the 
witness table, I would like to ask each one of you if you 
believe that the NRC should finish this process and issue a 
final decision.
    Mr. Fitz. As long as it is legally mandated under the 
Nuclear Waste Policy Act, the answer is yes.
    Mr. Shimkus. Thank you, Ms. Piccone.
    Ms. Piccone. It is dependent on congressional action and 
appropriations to the Agency.
    Mr. Shimkus. But having the appropriated money, the NRC 
would finish the application process.
    Ms. Piccone. Yes.
    Mr. Shimkus. Mr. White.
    Mr. White. Yes, and----
    Mr. Shimkus. That is good enough for me.
    Mr. Kuczynski.
    Mr. Kuczynski. Yes, unanimous.
    Mr. Shimkus. Mr. Fettus.
    Mr. Fettus. No.
    Mr. Shimkus. So you don't believe that if there is 
appropriated money, that the Federal Government should not 
follow the law? You are testifying right now that we should not 
follow the law?
    Mr. Fettus. Mr. Chairman, that is----
    Mr. Shimkus. I am going to go--Mr. Ronningen. I am 
reclaiming my time. Mr. Ronningen.
    Mr. Ronningen. Yes.
    Mr. Shimkus. Thank you very much.
    Mr. Fitz, your testimony provided an excellent description 
of the D.C. Court of Appeals ruling on the Aiken County case. 
If Congress provides additional funding to DOE and the NRC to 
complete the Yucca Mountain license, as the House of 
Representatives passed recently, would the writ of mandamus 
extend to the new funding and require action on the license?
    Mr. Fitz. I think if you take the D.C. Circuit mandamus 
decision in concert with the Atomic Safety and Licensing 
Board's decision that denied withdrawal to the Department of 
Energy, those two together indicate that the proceeding should 
move forward, that it is legally mandated, and that both 
entities, the Department of Energy and the NRC, are obliged to 
complete the process.
    Mr. Shimkus. They are obliged to complete the process. That 
is what you are testifying?
    Mr. Fitz. That is what I am testifying.
    Mr. Shimkus. And I think, following the previous testimony, 
both then Secretary Chu and Secretary Moniz, have both 
testified, given that scenario, they would be mandated to 
comply. And we have the records to support that statement.
    Mr. Kuczynski, your testimony discusses possible support 
for increased incentives for the State of Nevada. Would you 
please describe what sort of incentives could be included for a 
community?
    Mr. Kuczynski. First of all, we support the permanent 
repository, but we also support reasonable incentives to help 
construct the facility for Nevada. That has been our consistent 
testimony. Barney Beasley testified here in 2006 the exact same 
point, and our position has not changed.
    Mr. Shimkus. What could some of those be?
    Mr. Kuczynski. Infrastructure, education, anything that 
allows the process to move forward to continue the licensing 
process and the actual construction of the facility.
    Mr. Shimkus. Commissioner White, do you agree that we 
should and could support these types of incentives?
    Mr. White. Yes, they make sense. It is entirely appropriate 
for a community that may be hosting this facility to receive 
some kind of incentive benefits, yes.
    Mr. Shimkus. Thank you very much.
    Based upon time, I am going to yield back and recognize my 
Ranking Member, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    And, again, welcome to our panelists. Dr. Piccone, the 
Nuclear Regulatory Commission has a policy in the form of the 
Waste Confidence Rule that, as I understand it, links the 
licensing of nuclear reactors to the availability of safe 
storage and, more importantly, permanent disposal capability 
for nuclear waste. Can you briefly explain what that means in 
practical terms for the licensing any of our nuclear reactors?
    Ms. Piccone. I am sorry, Mr. Tonko. I don't have that 
information, but I can go back to staff and get that for the 
record for you.
    Mr. Tonko. Are there any on the panel that would want to 
speak to the waste confidence rule?
    Mr. Kuczynski.
    Mr. Kuczynski. Yes, I think it is more appropriate today to 
call it about the continued storage rule where the NRC has 
revised the Waste Confidence Rule that they reviewed the 
storage of spent fuel at our facilities for a variety of 
scenarios, and the conclusion was, from a safety, 
environmental, security standpoint, that we can store onsite 
for significant lengths of time.
    Mr. Tonko. Thank you. And, Dr. Piccone, under a best-case 
scenario, what is a minimum time to complete NRC's process and 
issue a construction license?
    Ms. Piccone. There are three things that are necessary for 
a decision to be made. One is the completion of the supplement 
to the Environmental Impact Statement, then the adjudicatory 
hearing, and then the Commission to make a decision on the 
contested and uncontested issues. It is hard to speculate on 
the length of time it would take for the adjudicatory 
proceeding. There are approximately 300 contentions and there 
may be additional new contentions or amended contentions. The 
adjudicatory hearing is suspended right now, and there is no 
schedule for a hearing.
    Mr. Tonko. Well, given those conditions, do we not need an 
interim policy of some sort?
    Ms. Piccone. An interim policy?
    Mr. Tonko. Interim storage.
    Ms. Piccone. Well, the waste is being stored right now 
safely at nuclear power plants.
    Mr. Tonko. But should there be an improved or more 
conclusive or predictable process if this interim is challenged 
on the given situations that we have today?
    Ms. Piccone. I think that is a national policy decision, 
sir, and not NRC.
    Mr. Tonko. Mr. Fettus, your organization sued NRC against 
the 2010 revision of the Waste Confidence Rule, as did New 
Jersey and several other States. Can you explain why you did 
that and where things stand today from your perspective?
    Mr. Fettus. Thank you, Mr. Tonko.
    Yes we did. And we were successful in front of a bipartisan 
panel of the D.C. Circuit with the decision in 2012. The reason 
why we sued was the lack of a basis for the NRC's judgment that 
there would be confidence that there is a long-term disposal 
option on the table. And, importantly, the problem was not 
necessarily that Yucca Mountain does not exist. The problem is 
that there was no NEPA review supporting, supporting, the NRC's 
decision. The NRC has conducted a NEPA review, and they have 
finalized it, and we have challenged that current review once 
again in the United States Court of Appeals, and that 
litigation is pending. The issue there is whether or not, at 
least as far as we are concerned, whether or not the NRC 
complied with the D.C. Circuit's explicit directions in the 
2012 decision and whether or not the NEPA review complies with 
the law. And the NEPA review is the National Environmental 
Policy Act and the environmental impact statement that needs to 
inform its decision on whether or not there is confidence to 
store the waste in the interim time up to the final disposal.
    Mr. Tonko. Thank you.
    With that, I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes Mr. Harper from Mississippi for 5 
minutes of questions.
    Mr. Harper. Thank you, Mr. Chairman.
    And thanks to each of you for being here and making this 
effort on such an important issue.
    Mr. Fitz, if I could talk to you for a moment, the 
Department of Energy recently announced its intention to 
initiate a new permanent repository program for nuclear 
material generated from National defense activities. As you are 
aware, Washington State holds about two-thirds of all defense 
material at the Hanford site. Did DOE consult with the State of 
Washington prior to making this announcement?
    Mr. Fitz. Thank you for the question. I am not aware of the 
consultation. I can't say that it did not occur, but it is not 
within my personal knowledge, and I can say personally that the 
announcement caught me by surprise.
    Mr. Harper. Were you advised of anyone that told you, yes, 
they told us about it, or you just can't rule it out because 
you are not privy to it.
    Mr. Fitz. It is the latter, or both I should say. I have 
not heard of any mention of consultation, and I can't rule it 
out.
    Mr. Harper. Does Washington believe this new policy would 
help the Federal Government fulfill its responsibilities under 
the Tri-Party Agreement between DOE, the Environmental 
Protection Agency, and the State of Washington?
    Mr. Fitz. There is not a deadline in the Tri-Party 
Agreement for actually disposing of waste. There is a deadline 
for getting waste treated, which right now I think is in 
question with waste treatment plant delays. As to the wisdom of 
splitting off the defense stream from commercial waste, I would 
say a couple of things. First, our position has been consistent 
that as long as the law requires moving forward with the 
Nuclear Waste Policy Act process for licensing Yucca Mountain, 
that should be respected. I can speak to what I understand to 
be my clients' policy position that pragmatically if there is 
another way to get waste disposed of more quickly, they are 
open to that, but I would echo what Mr. Fettus said--or, I am 
sorry, Mr. White said about DOE's schemes that don't have 
certainty or budget as a substitute for what right now is the 
legal process.
    Mr. Harper. One last area. I understand that the high-level 
tank waste at Hanford is to be vitrified into large logs that 
are engineered to be disposed in Yucca Mountain. If DOE pursues 
a defense-only repository, what will happen with the vitrified 
waste logs from Hanford, and would this delay the shipment of 
material out of Washington State?
    Mr. Fitz. I think that is an unknown, and that is a concern 
for Washington.
    Mr. Harper. Thank you very much.
    I yield back in the interest of time.
    Mr. Shimkus. Gentleman yields back his time. We think we 
have got--with the votes that are just called--we think we have 
got 15 or 20 minutes left. We will try to quickly get to 
everybody. And then we will decide how to deal with the panel.
    The chair recognizes the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    It is interesting testimony. And I appreciate you all 
coming down here today.
    Mr. Shimkus. Jerry, pull your mic up to you so that 
people----
    Ms. Piccone. Yes, as discussed in detail in Volume 4 of the 
Safety Evaluation Report, the geologic repository operations 
area, or the GROA, which is part of the repository, must be 
located on lands that are either acquired and under the 
jurisdiction and control of DOE or permanently withdrawn and 
reserved for its use. The land on which the repository 
operations area will be located must also be free and clear of 
significant encumbrances, such as mining rights deeds, rights 
of way, or other legal rights.
    In its application, DOE explained that it submitted a land 
withdrawal legislation to Congress in 2007. Congress did not 
enact that bill and DOE has not completed any other land 
acquisition process. Therefore, NRC staff concludes that DOE 
has not acquired the lands needed for the repository operations 
area, nor have any necessary lands been permanently withdrawn 
and reserved for DOE's use. In addition, because DOE has not 
completed a land withdrawal or other acquisition process, DOE 
has not demonstrated that the land would be free and clear of 
significant encumbrances.
    Mr. McNerney. That is an issue for the Congress to deal 
with, is that right?
    Ms. Piccone. That is what DOE submitted in their 
application. That is what NRC reviewed. DOE could submit 
additional information identifying other mechanisms and NRC 
would then review those as well.
    Mr. McNerney. Mr. Ronningen, thank you for coming. A little 
part of my district is in [inaudible] Territory. So I 
appreciate what you are doing. You mentioned that there were 
two private entities that announced sites in the last 4 months. 
Could you expand on that a little bit?
    Mr. Ronningen. Yes, sir. The Lee Eddy Group in New Mexico 
has approached the industry to develop centralized interim 
storage. And the WCS, Waste Control Specialists, in Texas has 
also come forward to announce that they wish to develop 
centralized interim storage.
    Mr. McNerney. Those are both [inaudible]
    Mr. Ronningen. Right. They would be consolidated interim 
storage, not repositories.
    Mr. McNerney. Is there any possibility there would be local 
support for those projects?
    Mr. Ronningen. They are already working on that.
    In the case of Waste Control Specialists, a couple years 
ago they were successful in garnering local support for a low-
level waste facility. And they wish to expand that to 
consolidate interim storage. And, again, the Lee Eddy Group has 
been working with local community members to get that approval 
from their constituents.
    Mr. McNerney. Thank you.
    Mr. White, you also mentioned the need for public-private 
partnerships. What do you have in mind exactly for that?
    Mr. White. A single-purpose entity that would be solely 
responsible for the management of the program. One of the 
problems with the Department of Energy's management is that 
they are a large organization, rather unwieldy. This program 
tends to be one of the minor focuses of the Department. We need 
an agency or, again, a public-private corporation that would 
have the authority and the focus to simply work on this issue 
alone.
    Mr. McNerney. Thank you, Mr. Chairman.
    I yield back my time.
    Mr. Shimkus. Thank you very much for yielding back.
    The chair now recognizes the gentleman from Kentucky, Mr. 
Whitfield, for 5 minutes.
    Mr. Whitfield. Thank you very much, Mr. Chairman.
    And thank you all for joining us today.
    Mr. Kuczynski, when I go to the [inaudible] Talk about 
nuclear waste. And we talk about the almost $20 trillion of 
Federal debt that we are approaching in this country. And, in 
1982 I think, Congress passed the Nuclear Waste Policy Act. And 
I think in 1987, Congress identified Yucca Mountain----
    Mr. Shimkus. Ed, make sure you talk loud. I don't think 
your microphone is working anymore. And I think we have lost 
them on the panel except for the chairman. I wonder how that 
happened.
    Mr. Whitfield. Anyway, so Congress identified Yucca 
Mountain as the permanent spot. And then we started spending 
large sums of taxpayer dollars in preparing Yucca Mountain. And 
I don't know the exact figure, but I understand it was roughly 
$10 billion or $12 billion in preparation. And then, in 2010, 
the Obama administration made a decision that they were not 
going to pursue the licensing process. And then a lawsuit was 
filed by various groups saying that the NRC and DOE were 
violating the law. And the petitioners or plaintiffs won that 
lawsuit. And, at some point in there, the Federal Government 
could not meet its legal obligation to take possession of this 
waste and move it to Yucca Mountain or a permanent site. And so 
another lawsuit was filed on that, and now there are judgments 
against the Federal Government for that. So, the amount of 
dollars the taxpayers have been paying out, and we still don't 
have a permanent site. And now this administration is saying 
that we need a separate site for military nuclear waste.
    And it is so frustrating because Congress made a decision a 
long time ago under Federal law to do this. And I understand 
our process of filing lawsuits, and we all have the right to do 
that. But, I mean, don't you think that taxpayers have a right 
to just be totally upset about this process and the fact that--
I am sure that you would like to see Yucca Mountain open as 
well. But am I being inaccurate in what I am saying here? I may 
have a few factual points that are not correct. But, 
philosophically, the American people are being taken to the 
cleaners on this. And it is a statement that Congress has 
clearly said that we want it to be at Yucca Mountain. Am I 
wrong on this?
    Mr. Kuczynski. No. We share your frustration. I think you 
are accurate in almost everything you have said. And there are 
downsides, the longer this is prolonged, the more expensive it 
is for taxpayers and utility rate customers. The science has 
been completed. The NRC has ruled, utilized that $12 billion to 
$15 billion to use the best experts we have in our country. NRC 
is seen as the gold standard and that ought to mean something. 
So, from a science standpoint, the Yucca Mountain facility, 
obviously a couple more hurdles, but it is set to be a 
repository. And that is the best way to serve the interests of 
taxpayers and customers across this country.
    Mr. Whitfield. Well, personally, I think it is very 
frustrating that the Obama administration is doing everything 
that they can do to create obstacles.
    And I would just like to publicly thank the chairman of 
this subcommittee, John Shimkus, because he has been a real 
leader in trying to make sure that the intent of Congress is 
pursued and followed through on this. And so many of us want to 
help him in any way that we can to complete this project and 
get it behind us. We have spent enough time and money on this 
in my humble opinion.
    Mr. Kuczynski. In our view of the process back in the 
1980s, under the Nuclear Waste Policy Act, there are provisions 
for local communities and States to take part in that process. 
They did take part. Congress overrode those objections. And we 
ought to follow the law.
    Mr. Whitfield. I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes--and we are fine on time, Gene--5 
minutes for questions. And if you want to come down here and 
use this mic, you can.
    Mr. Green. I think I can probably talk without it.
    Mr. Shimkus. Now it is working.
    Mr. Green. I was out at Yucca Mountain, what, 4 years ago 
with the chair. I didn't go on the last trip you did because, 
coming from Texas, I was actually on an offshore oil rig. When 
I was out there, we met with all the county officials where 
Yucca Mountain is. And it seemed like, to an elected official, 
in the counties around Yucca Mountain, they all supported the 
use of the permanent repository. But my first question was, has 
any country in the world developed a long-term nuclear storage? 
Because I know Sweden, I went there one time, and they had a 
prototype of a hole in the ground. And, of course, they joked 
that Sweden is nothing but granite, so you can put anything 
down there. But has any country developed a long-term nuclear 
storage?
    Mr. Fettus. The only operating geological repository was in 
the United States, which is the WIPP facility in southeastern 
New Mexico for transuranic waste or trace amounts of plutonium 
for defense, transuranic waste. And it is currently shut down 
after an accident in February of 2014.
    Mr. Green. OK. My big concern, though, is the interim 
storage because of what is happening. And, by the way, Mr. 
Kuczynski, I congratulate Southern Company because I am a 
supporter of expansion of nuclear power. And you have the first 
expansion in decades to be able to do it because if you are 
worried about carbon, nuclear power is a solution. Now, we need 
to deal with the storage capacity, both long term and interim. 
But my question is about the interim storage. Are there safety 
concerns about storing the spent nuclear facilities on the 
locations they are now?
    Mr. Kuczynski. No. We have constructed our spent fuel pools 
and our dry cask storage facilities. They meet strict 
environmental, safety, security requirements. And recent 
studies have shown both of safe for the foreseeable future. And 
that was a basis of the continued storage rule.
    Mr. Green. What is the cost for the Department of Energy's 
failure to take title of that spent fuel? Have you all 
estimated that?
    Mr. Kuczynski. I can give you some ballparks, every cask 
that we load on the dry cask I would just say it is about $2 
million. And we have about 100 of them in our system. We plan 
to do about 25 of them a year going forward. So that is 
ballpark. And we do not recover all of those funds through 
litigation. In fact----
    Mr. Green. I assume you have to go, the ratepayers are 
actually paying for that?
    Mr. Kuczynski. Absolutely.
    Mr. Green. Would opening an interim storage facility help 
relieve many of those storage concerns, nuclear, and I assume 
the other companies around the world, around the country 
anyway?
    Mr. Kuczynski. The interim storage?
    Mr. Green. Yes.
    Mr. Kuczynski. I think that is an avenue that this 
committee ought to look at. Our position is the long-term 
repository is the method. The statutory limit of, I think, the 
capacity is not necessarily technically based. I think we ought 
to pursue all storage at Yucca. Interim at Yucca would make 
more sense to me than interim storage at other facilities. Each 
time you build something new and then have to continue to move, 
it makes it more expensive for everybody.
    Mr. Green. Well, obviously, we need to develop a long-term 
storage. But I would also like to see on a lot of the 
companies, including the south Texas project that I supported 
back as a State legislator in the 1970s, I would like to see 
expansion there. But we do need to have long-term storage. And, 
ultimately, I think we ought to take responsibility as a 
Federal Government for the interim storage in locations that 
are around the country. Maybe they are not all like what 
Southern Company does or Sacramento or someplace else. But I 
think it is our responsibility. We need to deal with it.
    Mr. Kuczynski. In general, we are not opposed. However, I 
think the law states that licensing of the long-term facility 
is first priority and then interim is after that.
    Mr. Green. OK. Mr. Chairman, I will yield back my time. 
Thank you for the hearing.
    Mr. Shimkus. The gentleman yields back his time.
    We have 45 seconds before the votes are closed on the 
floor. I really want to appreciate and thank my colleagues for 
being really precise and attempting to be to the point.
    After consultation with the minority, we have agreed to 
adjourn in a minute. So we won't come back for additional 
questions. We want to thank you for your testimony.
    I want to remind you that the hearing record is open for 10 
business days, so you may get questions submitted for the 
record. If you would then reply to us in that case, we would 
appreciate it.
    With that, again, thank you very much. And the hearing is 
adjourned.
    [Whereupon, at 10:12 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    Thank you, Chairman Shimkus, for holding this hearing and 
for your continued leadership on this important issue. I also 
thank the witnesses for being here this morning.
    It's a pleasure to welcome Commissioner Greg White, who has 
served on the Michigan Public Service Commission since 2009. 
Commissioner White's service and national leadership on nuclear 
issues will be missed when his term concludes this summer.
    33 years after the Nuclear Waste Policy Act was enacted 
into law, the federal government continues to struggle to 
fulfill its legal obligations to properly dispose of our spent 
nuclear fuel from commercial power plants, and our defense 
nuclear waste. Ironically, it's the lack of appropriations to 
finish out the job that is forcing additional costs on to 
American consumers and taxpayers.
    The Nuclear Regulatory Commission, in partnership with the 
Department of Energy, has a statutory obligation to complete 
the licensing process for Yucca Mountain. To support this 
effort, the House of Representatives recently passed an 
appropriations bill with strong funding levels for DOE and NRC 
explicitly for this purpose. Additionally, the bill prohibited 
DOE from walking away from Yucca Mountain.
    But after 30 years and $15 billion spent on this permanent 
repository we seem to be at a standstill, and the current 
administration's nuclear waste management policy appears to be 
simply ``delay and complicate.''
    For example, in March the administration announced it would 
separate the disposal path of material generated by defense 
activities from commercial spent nuclear fuel and pursue a new 
repository solely for defense waste. This announcement marked a 
major departure from a 30 year-old bipartisan policy to dispose 
of commercial and defense waste in a single repository.
    Recently there has been renewed interest and urgency in 
solving our nuclear waste management system deadlock. Breaking 
this deadlock will likely require legislation. Some suggest an 
interim storage program, intended to take title to commercial 
spent nuclear fuel and move defense nuclear waste on an 
accelerated timeframe. However, the Nuclear Waste Policy Act 
blocks licensing of an interim storage facility until 
construction of a permanent geological repository is authorized 
by the NRC. Linking an interim storage site to the development 
of a permanent repository could represent a breakthrough in 
nuclear waste management policy. But we must ensure that spent 
nuclear fuel will not be stored in an ``interim'' facility 
forever.
    Other proposals emphasize moving ``stranded fuel,'' or 
spent nuclear fuel from shutdown reactors. Despite the urgency 
many of us feel about these closed down sites, taking care of 
them should not be pursued to the exclusion of dealing with 
fuel throughout the entire system.
    I hope today's hearing will advance the discussion to break 
the current impasse in our nation's nuclear waste management 
policy. Our witnesses today bring years of experience and deep 
commitment to resolving the nuclear waste question.
                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  [all]
                                  
                                  
                                  
</pre></body></html>
